No.

In the
Supreme Court of the United States
In re: GARY E. PEEL

ON PETITION FOR WRIT OF MANDAMUS TO THE UNITED STATES COURT
OF APPEALS FOR THE SEVENTH CIRCUIT

CERTIFICATE OF SERVICE
The undersigned hereby certifies that he did serve a courtesy copy of the
following:
a) MOTION FOR LEAVE TO FILE AN ORIGINAL ACTION
b) ORIGINAL PETITION FOR WRIT OF MANDAMUS
c) MOTION FOR LEAVE TO PROCEED IN FORMA PA UPERIS (with
attached “AFFIDAVIT ACCOMPANYING MOTION FOR PERMISSION TO
PROCEED IN FORMA PAUPERIS” and SUPPLEMENT)
d) CERTIFICATE OF COMPLIANCE WITH TYPE-VOLUME LIMIT,
TYPEFACE REQUIREMENTS, AND TYPE STYLE REQUIREMENTS
with this “Certificate of Service” attached, on the following:
Clerk
U.S. Court of Appeals for the Seventh Circuit
Everett McKinley Dirksen U.S. Courthouse
Room 2722
219 S. Dearborn St.
Chicago, IL 60604
and
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N. W.

f

Washington, DC 20530-0001
and
Ms. Jennifer Hudson
[Attorney for Barbra Zarrick, Chief United States Probation Officer for
the Southern District of Illinois) Habeas respondent (United States of
America)] in the underlying Seventh Circuit habeas appeal (Seventh
Circuit Case No. 18-2732).]
Assistant United States Attorney
Nine Executive Drive
Fairview Heights, IL 62208
by depositing same in the United States Postal Service Office located at 10850
Lincoln Trail, Unit 20, Fairview Heights, Illinois, by first class mail, withp^stage
prepaid, on this 23rd day of March 2021.
-Gai

9705/lRear) Fairmont Road
Fairview Heights, IL 62208
Garvepeel@Hotmail.com
Phone: 618-514-7203

